                                                                             Report No. DODIG-2013-124




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 26, 2013




                     Report on Quality Control Review
                     of the Grant Thornton, LLP, FY 2011
                     Single Audit of the Henry M. Jackson
                     Foundation for the Advancement of
                     Military Medicine




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                         INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                         4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VIRGINIA 22350-1500



	                                                                                          August 26, 2013
Board of Directors
Governing Council
Henry M. Jackson Foundation for the
Advancement of Military Medicine

Director of Internal Control and Reporting
Henry M. Jackson Foundation for the
Advancement of Military Medicine

National Managing Partner
Professional Standards Group
Grant Thornton, LLP

Audit Partner
Grant Thornton, LLP

SUBJECT: Quality Control Review of the Grant Thornton, LLP, FY 2011 Single Audit of the Henry M. Jackson 	
	        Foundation for the Advancement of Military Medicine (Report No. DODIG-2013-124)

We are providing this report for your information and use. As the cognizant Federal agency for the
Henry M. Jackson Foundation for the Advancement of Military Medicine, we began a review of the
Grant Thornton, LLP single audit and supporting work papers for the year ended September 30, 2011.
The purpose of our review was to determine whether the single audit was conducted in accordance with
government auditing standards, the American Institute of Certified Public Accountants’ auditing standards,
and the auditing and reporting requirements of Office of Management and Budget Circular A-133, “Audits of
States, Local Governments, and Non-Profit Organizations.”

We discontinued our quality control review after we learned a staff auditor had falsified workpapers;
therefore, the audit report opinion on compliance with requirements on the Federal program cannot be
relied on. Grant Thornton, LLP needs to perform additional audit procedures to support the audit
conclusions and overall audit opinion. We will reschedule our review once the additional audit work
is completed and the audit report is resubmitted to the Federal Audit Clearinghouse.

We considered management comments on the draft of this report. The management comments were
responsive; therefore, additional comments are not required.

We appreciate the courtesies extended to the audit staff. For additional information on this report, please
contact Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877).




	                                            Randolph R. Stone
	                                            Deputy Inspector General
	                                            Policy and Oversight

                                                                                                  DODIG-2013-124 │ i
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                  Review Results __________________________________________________________________________________1
                  Management Comments and DoDIG Response _______________________________________________2

                  Finding A
                  Performance of Federal Program Audit________________________________________________________3
                  Recommendations, Management Comments, and Our Response____________________________3

                  Finding B
                  Audit Sample Size Determination ______________________________________________________________5
                  Sampling Considerations _______________________________________________________________________5
                  Significance of Control __________________________________________________________________________6
                  Grant Thornton’s Sampling Policy _____________________________________________________________7
                  Recommendations, Management Comments, and Our Response____________________________8

                  Appendices
                  Appendix A. Quality Control Review Process_ ______________________________________________ 10
                  Appendix B. Compliance Requirements_____________________________________________________ 12
                  Appendix C. Grant Thornton, LLP Comments________________________________________________ 13

                  Acronyms and Abbreviations______________________________________________ 16




ii │ DODIG-2013-124
                                                                                                                                     Introduction




Introduction
Objective
As the cognizant Federal agency for the Henry M. Jackson Foundation for the Advancement
of Military Medicine (the Foundation), we began a review of the Grant Thornton LLP
(Grant Thornton), single audit and supporting working papers for the audit period
October 1, 2010 through September 30, 2011. The purpose of our review was to determine
whether the single audit was conducted in accordance with auditing standards1 and the
auditing and reporting requirements of the Office of Management and Budget (OMB)
Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations,”
(Circular A-133). Appendix A contains additional criteria, scope, and methodology
of the review; and Appendix B lists the compliance requirements that Grant Thornton
determined to be applicable to the FY 2011 audit.


Background
The Foundation is a not-for-profit organization authorized by Congress in May 1983 to
support military medical research. The Foundation administers, manages, and supports
scientific programs that benefit members of the armed forces and civilians. During
FY 2011, the Foundation expended $398.4 million in Federal awards, under one Federal
program, the research and development cluster. Of the $398.4 million, $335.9 million was
expended for Department of Defense programs.


Review Results
We discontinued our quality control review due to the determination that some of the
Grant Thornton work papers could not be relied on and, therefore, neither could the audit
report opinion on compliance with requirements on the Federal program. Grant Thornton
needs to perform additional audit procedures to support the audit conclusions and overall
audit opinion (Finding A). We will reschedule our review once the additional audit work
is completed and the audit report is resubmitted to the Federal Audit Clearinghouse.

Although we are discontinuing our review, we identified an issue with Grant Thornton’s
sampling policy that needs to be addressed to ensure the audit procedures performed for
all single audits are sufficient to support the opinion on compliance with requirements on
Federal programs (Finding B).


1		
      Auditing standards include both government auditing standards and the American Institute of Certified Public Accountants’
      audit standards.




                                                                                                                                  DODIG-2013-124 │ 1
Introduction



                 Management Comments and DoDIG Response
                 The National Managing Partner, Professional Standards Group, Grant Thornton, LLP,
                 agreed to take the recommended actions. Management comments were responsive and
                 conform to requirements; no additional comments are needed. Management comments
                 are included in their entirety at the end of this report.




2 │ DODIG-2013-124
                                                                                                  Finding A




Finding A
Performance of Federal Program Audit
Grant Thornton reviewed a sample of transaction items to evaluate the Foundation’s
compliance with applicable compliance requirements. We performed re-testing of several
transaction items included in the sample to determine whether the audit procedures
performed were sufficient to support audit conclusions. The re-testing consisted of
examining the source documents reviewed by the Grant Thornton auditors. As a result of
our analysis, we detected several irregularities and requested additional information and
clarification from Grant Thornton auditors. In response to our inquiries, Grant Thornton
performed further research and determined that some items in the sample were not part
of the Foundation’s transactions for FY 2011. Grant Thornton informed us that one staff
auditor falsified work papers by copying transactions from the prior year single audit
and changing the dates of the transactions to make them appear to be FY 2011
transactions. These false transactions were included in the sample used for several
compliance requirements. Due to the seriousness of the situation, Grant Thornton stated
that they were investigating the matter, had terminated the auditor who falsified work
papers, and were performing additional audit work to support its audit opinion on the
Foundation’s FY 2011 single audit.



Recommendations, Management Comments, and Our
Response
Recommendation A
We recommend that the National Managing Partner, Professional Standards Group,
Grant Thornton, LLP, provide the DoD Office of Inspector General with:

      1.	   The results of the Grant Thornton investigation into the matter of the falsified
            work papers,

      2.	   A list of all Circular A-133 audits and any audits impacting DoD on which the
            Grant Thornton auditor who falsified work papers was assigned,

      3.	   The role of the auditor and any specific actions taken on the audit(s) identified
            above, and




                                                                                            DODIG-2013-124 │ 3
Finding A



                 Grant Thornton Comments
                 The National Managing Partner, Professional Standards Group, Grant Thornton, LLP,
                 agreed to provide the requested information for Recommendations A.1, A.2, and A.3 by
                 September 15, 2013.


                 Our Response
                 Grant Thornton comments were responsive to the recommendations. No additional
                 comments are needed.

                       4.	   Any corrective actions taken, including changes to Grant Thornton’s
                             supervisory review process and overall quality control procedures.

                 Grant Thornton Comments
                 The National Managing Partner, Professional Standards Group, Grant Thornton, LLP,
                 stated that Grant Thornton has a zero-tolerance policy for the conduct that occurred and
                 that they would reinforce the importance of exhibiting ethical behavior at the next local
                 office audit training and as part of their annual national core training. She also stated
                 they will consider whether there are changes they could make to their system of quality
                 control and would provide this information by September 15, 2013.


                 Our Response
                 Grant Thornton comments were responsive to the recommendation. No additional
                 comments are needed.




4 │ DODIG-2013-124
                                                                                                                                   Finding B




Finding B
Audit Sample Size Determination
The auditors did not adequately plan the audit because they did not assess the significance
of the internal control being tested when determining the size of the audit sample.
Guidance on sampling is contained in “Government Auditing Standards and Circular A-133
Audits” (the Audit Guide)2 issued by the American Institute of Certified Public Accountants
(AICPA). The guidance provides sampling considerations, including an assessment of
the significance of the internal control, to ensure that the sampling approach used in the
single audit provides sufficient and appropriate evidence. Grant Thornton auditors did
not document in the work papers an assessment of the significance of the control being
tested because they disagree with the Audit Guide and believe its policy yields a sample
size sufficient to test any particular control. Due to the lack of adequate documentation,
we were unable to conclude that the sample size tested provided sufficient evidence to
support the conclusions on the operating effectiveness of internal controls.



Sampling Considerations                                  2

Circular A-133 requires auditors to plan the testing of internal control over major
programs to support a low assessed level of control risk for the assertions relevant to
the compliance requirements for each major program. Chapter 11 of the Audit Guide
provides considerations in designing an audit approach that includes audit sampling to
achieve both compliance and internal control over compliance related audit objectives in
a Circular A-133 audit. Specifically, the Audit Guide provides suggested minimum sample
sizes designed to provide sufficient appropriate audit evidence that controls are operating
effectively; however, the guide states that auditors may need to use professional judgment
to determine if larger sample sizes are warranted. The minimum sample sizes identified
in the Audit Guide (see Table) require the auditor to assess both the inherent risk factors
and the significance of the control being tested when no deviations3 are expected.




2		
    The AICPA Audit Guide is an interpretative publication issued under the authority of the Auditing Standards Board. The
    members of the Accounting Standards Board have found the auditing guidance to be consistent with existing Statements
    on Auditing Standards.
3		
    A deviation is a departure from the expected performance of the prescribed control.




                                                                                                                             DODIG-2013-124 │ 5
Finding B



                 Table. AICPA Audit Guide – Control Testing Sample Size
                       Significance of Control and Inherent Risk of Compliance    Minimum Sample Size
                                             Requirement                         (0 deviations expected)
                     Very significant and higher inherent risk                             60
                     Very significant and limited inherent risk
                     or                                                                    40
                     Moderately significant and higher inherent risk
                     Moderately significant and limited inherent risk                      25


                 Grant Thornton auditors documented their assessment of the inherent risk factors for
                 each of the compliance requirements but did not assess the significance of the control
                 being tested because they followed their own internal policy to determine the size of
                 the sample selected for testing internal controls and compliance. The Grant Thornton
                 sampling policy states that a sample size of 25 items should be used when performing
                 tests of controls when no deviations are expected.


                 Significance of Control
                 The Audit Guide states that the auditor should use the information gathered by performing
                 the risk assessment procedures to determine the nature, timing, and extent of further
                 audit procedures to be performed for each control selected for testing, as well as to assist
                 the auditor in determining the significance of the control. All controls that the auditor
                 determines must be tested to mitigate the risk of material noncompliance are significant
                 controls, but a spectrum exists as to the significance of each control. Several factors may
                 be considered in determining the significance level of a control including the potential
                 magnitude of noncompliance to the program if the particular control were to fail and
                 the number of controls selected for testing. For instance, if payroll was a large portion
                 of expenditures for the program, the internal control tested would likely be considered
                 very significant. However, if the auditor planned to test complementary, compensating,
                 or redundant controls over payroll, each control would more likely be assessed as
                 moderately significant.

                 In a sampling policy memorandum dated August 18, 2011, Grant Thornton states that
                 “the opinion expressed does not depend on the effectiveness of any one control, rather
                 efficient sample sizes are achieved because many controls are tested in an integrated
                 audit, and other tests are performed in a financial statement or compliance audit.” Yet,
                 for the Foundation’s single audit, Grant Thornton limited the testing to one key control for
                 many of the compliance requirements. When only one control is selected for testing, we
                 generally would conclude that control is very significant, especially without documentation
                 in the work papers to indicate otherwise. Therefore, Grant Thornton may not have met



6 │ DODIG-2013-124
                                                                                                 Finding B



the minimum sample sizes, identified in the Audit Guide, necessary to support the audit
conclusions that the Foundation’s internal controls were operating effectively.


Grant Thornton’s Sampling Policy
The Grant Thornton policy memorandum does not agree with the Audit Guide regarding
an assessment of the significance of the control being tested. Grant Thornton stated the
Audit Guide inappropriately focused on the controls as if the objective of the audit was to
express an opinion on the effectiveness of each control selected for testing. Specifically,
Grant Thornton stated that they do “not apply a separate risk assessment process to
each control selected for testing” because they “believe that this could lead the auditor to
incorrectly responding to the risk of noncompliance by performing more control testing
when the risk is higher rather than testing compliance.” In effect, Grant Thornton believes
the Audit Guide could lead the auditor to perform more testing on controls in response
to the assessed risks instead of increasing the testing of compliance with requirements.
The Grant Thornton policy states that its established sampling methodology is a risk-
based approach that focuses on key controls and yields a sample size of 25, which Grant
Thornton considers sufficient to test for any particular control. In our opinion, Grant
Thornton incorrectly interprets the Audit Guide as focusing on internal controls rather
than providing guidance on factors that should be addressed to ensure the sample size
selected in a Circular A-133 audit will provide sufficient appropriate audit evidence that
controls are operating effectively. The determination of whether controls are operating
effectively impacts the auditors’ determination of the compliance testing sample size
necessary to support the overall audit opinion on compliance with requirements on the
Federal program.

Although Grant Thornton disagrees with several points made in the guide, disagreement
is not a sufficient basis for not following the guidance. AICPA interpretative publications,
including the Audit Guide, provide recommendations on the application of Statements
on Auditing Standards (SAS) in specific circumstances. If an auditor does not apply
the auditing guidance included in an applicable interpretive publication, the auditor is
required to explain how they complied with the SAS provisions addressed by the auditing
guidance. In its policy memorandum, Grant Thornton stated that that the Audit Guide
presented one of many different methodologies that could be developed to address the
number of occurrences of a control to test. However, the AICPA added Chapter 11 to
the Audit Guide specifically to address the wide disparity in the number of items tested
for compliance and for internal control over compliance, as reported in the President’s
Council on Integrity and Efficiency “Report on National Single Audit Sampling Project,”




                                                                                           DODIG-2013-124 │ 7
Finding B



                 June 21, 2007. Chapter 11 was developed by a task force comprised of a wide range of
                 auditors having expertise in performing single audits, as well as in audit sampling, to
                 provide consistency in determining the number of transactions tested, and in documenting
                 tests performed and populations from which they are drawn. Therefore, we do not believe
                 the intent of the Audit Guide was to provide one example of many different methodologies
                 that could be used but was designed to ensure sufficient appropriate evidence is obtained
                 to support the auditors’ conclusions on internal control and compliance.


                 Recommendations, Management Comments, and Our
                 Response
                 Recommendation B.1
                 We recommend that the National Managing Partner, Professional Standards Group,
                 Grant Thornton, LLP revise the Grant Thornton sampling policy to include steps on
                 how to determine and document the significance of the internal controls being tested
                 according to the auditing guidance in the AICPA Audit Guide.

                 Grant Thornton Comments
                 The National Managing Partner, Professional Standards Group, Grant Thornton, LLP, stated
                 that Grant Thornton revised its sampling policy on June 25, 2013 to include audit steps
                 to determine and document the significance of the internal controls that are identified
                 for testing for all Circular A-133 audits. The revisions were made to align their audit
                 approach with the most recent AICPA Audit Guide and were effective immediately.


                 Our Response
                 Grant Thornton comments were responsive to the recommendations. No additional
                 comments are needed.


                 Recommendation B.2
                 We recommend that the Audit Partner, Grant Thornton, LLP assess the significance
                 of the internal controls being tested, according to the auditing guidance in the
                 AICPA Audit Guide, when determining the sample sizes for the FY 2011 Single Audit on
                 the Henry M. Jackson Foundation for the Advancement of Military Medicine.


                 Grant Thornton Comments
                 The National Managing Partner, Professional Standards Group, Grant Thornton, LLP,
                 stated that the Audit Partner and engagement team were assessing the significance




8 │ DODIG-2013-124
                                                                                           Finding B



of internal controls to determine the sample sizes for the FY 2011 single audit on
the Henry M. Jackson Foundation for the Advancement of Military Medicine. This
assessment and any related testing of additional items, is expected to be completed by
September 15, 2013.


Our Response
Grant Thornton comments were responsive to the recommendations. No additional
comments are needed.




                                                                                     DODIG-2013-124 │ 9
Appendices




                 Appendix A
                 Quality Control Review Process
                 Criteria, Scope, and Methodology
                 The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the
                 financial management of State and local governments, and nonprofit organizations by
                 establishing a uniform set of auditing and reporting requirements for all Federal award
                 recipients required to obtain a single audit. Circular A-133 establishes policies that guide
                 the implementation of the Single Audit Act, and provides an administrative foundation
                 for uniform audit requirements of non-Federal entities administering Federal awards.
                 Entities that expend $500,000 or more in a year are subject to the Single Audit Act and
                 audit requirements in Circular A-133. Therefore, they must have an annual single or
                 program-specific audit performed in accordance with government auditing standards
                 and submit a complete reporting package to the Federal Audit Clearinghouse.

                 We performed a limited review of the Grant Thornton, LLP, FY 2011 single audit of
                 the Foundation and the reporting package that was submitted to the Federal Audit
                 Clearinghouse on June 28, 2012, using the 2010 edition of the “Guide for Quality Control
                 Reviews of OMB Circular Audits” (the Guide). The Guide applies to any single audit that
                 is subject to the requirements of Circular A-133 and is the approved Council of Inspectors
                 General on Integrity & Efficiency checklist for performing quality control reviews.

                 We performed our review from January 2013 through June 2013. However, we were
                 unable to complete the review due to the determination that some of the Grant Thornton
                 work papers, and therefore, the single audit opinion, could not be relied on. We will
                 reschedule our quality control review once the additional audit work is completed and
                 the audit report is resubmitted to the Federal Audit Clearinghouse.


                 Prior Quality Control Review
                 Since October 1, 2008, we performed one quality control review of Grant Thornton,
                 LLP Circular A-133 audits. The quality control review identified deficiencies resulting
                 in findings and recommendations on the Schedule of Expenditures of Federal
                 Awards and audit documentation. Unrestricted IG DoD reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm?office=Audit Policy and Oversight .




10 │ DODIG-2013-124
                                                                                       Appendices



DoD IG Report
Report No. 2012-DoDIG-029, “Report on Quality Control Review of Grant Thornton, LLP
FY 2009 Single Audit of Concurrent Technologies Corporation,” December 5, 2011




                                                                                  DODIG-2013-124 │ 11
Appendices




                 Appendix B
                 Compliance Requirements
                                                                                                  Not Applicable/
                           OMB Circular A-133 Compliance Requirements           Applicable         Not Material
                      Activities Allowed/Unallowed                                   X
                      Allowable Costs/Cost Principles                                X
                      Cash Management                                                X
                      Davis-Bacon Act                                                                     X
                      Eligibility                                                                         X
                      Equipment and Real Property Management                         X
                      Matching, Level of Effort, Earmarking                                               X
                      Period of Availability of Federal Funds                        X
                      Procurement, Suspension, and Debarment                         X
                      Program Income                                                                      X
                      Real Property Acquisition and Relocation Assistance                                 X
                      Reporting                                                      X
                      Subrecipient Monitoring                                        X
                      Special Tests and Provisions                                   X
                 Note: This chart reflects Grant Thornton’s determination of the compliance requirements that are
                 applicable and material to the major program.




12 │ DODIG-2013-124
                                    Appendices



Appendix C
Grant Thornton, LLP Comments




                               DODIG-2013-124 │ 13
Appendices



        Grant Thornton, LLP Comments (cont’d)




14 │ DODIG-2013-124
                                             Appendices



Grant Thornton, LLP Comments (cont’d)




                                        DODIG-2013-124 │ 15
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      AICPA American Institute of Certified Public Accountants
                      OMB Office of Management and Budget
                        SAS Statements on Auditing Standards




16 │ DODIG-2013-124
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800. 424.9098
